      Department of Homeland Security



     Costs Invoiced for Checked Baggage Inspection
      Systems and Closed-Circuit Television Cameras
               at Orlando International Airport




             American Recovery and Reinvestment Act of 2009




OIG-12-129                                                    September 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                  September 25, 2012


MEMORANDUM FOR:              John P. Sanders
                             Assistant Administrator
                             Office of Security Capabilities
                             Transportation Security Administration

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Costs Invoiced for Checked Baggage Inspection Systems and
                             Closed-Circuit Television Cameras at Orlando International
                             Airport

Attached for your information is our final letter report, Costs Invoiced for Checked
Baggage Inspection Systems and Closed-Circuit Television Cameras at Orlando
International Airport. Since the report contains no recommendations to Transportation
Security Administration officials, we did not solicit formal comments.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Roger LaRouche, Audit Director; William J. Gillies,
Audit Manager; Karl T. Gallagher, Audit Manager; and Marisa Coccaro, Report Referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

   Background
   On February 17, 2009, Congress enacted thefAmericanfRecoveryfandfReinvestmentfActf
   off2009, as amendedf(Recovery Act) to preserve and create jobs, promote economic
   recovery, and invest in transportation, environmental protection, and other infrastructure
   that will provide long-term economic benefits. The Recovery Act appropriated $1 billion
   to the Transportation Security Administration (TSA) for “procurement and installation of
   checked baggage explosives detection systems and checkpoint explosives detection
   equipment….” According to TSA, it awarded $574,023,419 of that amount to 25 airport
   organizations for 29 projects modifying airports to accommodate new checked baggage
   inspection systems (CBISs) and $61,827,702 to 14 airport organizations for the
   Advanced Surveillance Program (ASP). Under the ASP, TSA funds the purchase and
   installation of closed-circuit television cameras (CCTVs) throughout TSA’s passenger and
   baggage screening areas of responsibility at the airport.

   TSA awarded four Other Transaction Agreements (OTAs) to the Greater Orlando
   Aviation Authority (Authority) for the following projects:

                                                                              TSA SHARE
       OTA                                              ESTIMATED
     NUMBER              PROJECT DESCRIPTION               COST       PERCENT      AMOUNT
    HSTS04-09­    Design, modification, and             $16,585,898      90       $14,927,308
    H-REC127      construction for TSA’s in-line CBIS
                  at Orlando International Airport’s
                  (MCO) Central East and West
                  Terminal baggage screening
                  locations.
    HSTS04-09­    Design for new in-line CBIS at          1,448,276     90          1,303,448
    H-REC162      MCO’s Remote Screening Facility.
    HSTS04-10­    Engineering and construction for       25,436,000     90         22,892,400
    H-REC112      TSA’s in-line CBIS at MCO’s Remote
                  Screening Facility.
    HSTS04-10­    Design, procurement, and                7,525,000     100         7,525,000
    H-REC401      installation for additional CCTV
                  equipment at passenger screening
                  checkpoints, baggage resolution
                  rooms, and Federal inspection
                  services checkpoints at MCO.
    Totals                                               50,995,174                46,648,156

   Reimbursement for eligible project costs is based on the scope of the OTAs; Office of
   Management and Budget (OMB) Circular A-87, Revised, CostfPrinciplesfforfState,fLocalf
   andfIndianfTribalfGovernments;fand the TSA publication Reimbursable/Non-Reimbursablef

www.oig.dhs.gov                                   2                                   OIG-12-129
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   CostsfforfthefElectronicfBaggagefScreeningfProgram, relevant version. The agreements
   also require the Authority to comply with OMB Circular A-133, Revised, AuditsfoffStates,f
   LocalfGovernments,fandfNonprofitfOrganizations,fand Recovery Act provisions to submit
   quarterly recipient reports to the Federal Government. Additionally, for construction
   projects the Recovery Act requires payment of prevailing wages as determined by the
   Secretary of Labor in accordance with subchapter IV of chapter 31 of title 40 of the
   United States Code and the use of American iron, steel, and manufactured goods.




www.oig.dhs.gov                               3                                  OIG-12-129

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security

   Results of Review
   We determined that project costs of $24,255,866 were allowable, allocable, and
   reasonable, as summarized below:

                                                               TSA SHARE
                                      PROJECTS                                              TSA             PROJECT
           OTA NUMBER                   COST           PERCENT         AMOUNT           PAYMENTS             STATUS
       HSTS04-09-H-REC127            $13,906,255          90          $12,515,630       $12,515,630         Completed
       HSTS04-09-H-REC162              1,380,082          90            1,242,074         1,242,074         Completed
       HSTS04-10-H-REC112              8,258,924          90            7,433,032        6,689,729*              Open
       HSTS04-10-H-REC401                710,605         100              710,605           710,605              Open
         Totals                       24,255,866                       21,901,341        21,158,038

       *TSA withholds from payment 10 percent of its share of construction project costs pending completion of the
       project. In this case, TSA withheld $743,303 for 10 percent of the $7,433,032.


   In addition, we verified that the Authority complied with the Recovery Act requirements
   for submitting quarterly reports on project activities to the Federal Government; for
   paying prevailing wages; and for using American iron, steel, and manufactured goods1 in
   the CBIS construction projects. TSA determined that the additional CCTV equipment
   project was not subject to the “buy American” provisions of the Recovery Act.




   1
    On October 13, 2009, the Department of Homeland Security issued a limited waiver of the “buy
   American” requirements for each TSA Electronic Baggage Screening Program project. The waiver specifies
   that at least 95 percent of the costs of each project will comply with buy American requirements of
   section 1605 of the Recovery Act, and allows up to 5 percent of total project costs to be used for non-
   American products.

www.oig.dhs.gov                                               4                                            OIG-12-129

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs invoiced by the Authority
   were allowable, allocable, and reasonable according to the funding agreements and
   applicable Federal requirements. Our audit covered invoiced costs of $21,901,341 for
   the period April 2009 through March 2012.

   In conducting our audit, we—

   •	 Reviewed the Recovery Act, OTAs, and TSA and OMB guidelines;
   •	 Interviewed TSA officials to obtain an understanding of the project and project
      management;
   •	 Interviewed Authority officials to obtain an understanding of the project, project
      management, accounting, and invoicing;
   •	 Examined Authority accounting records and supporting documents for the amounts
      invoiced to TSA;
   •	 Reviewed the eligibility of 100 percent of the costs submitted for reimbursement,
      relying on the Single Audits performed for fiscal years (FYs) 2009, 2010, and 2011
      and discussing our findings with Authority officials;
   •	 Inspected the CBIS and the CCTV projects; and
   •	 Reviewed the audit working papers of the certified public accounting firms that
      performed the Single Audits of the Authority for FYs 2009, 2010, and 2011.

   Ernst & Young, LLP, performed the Single Audit of the Authority for FY 2009, and Moore
   Stephens and Lovelace, P.A., performed the audits for FYs 2010 and 2011. The audits
   included Recovery Act–funded CBIS and CCTV project costs totaling $18,361,048
   (84 percent of invoiced costs). The Single Audit reports classified the CBIS and CCTV
   projects as major programs. The Single Audit reports did not identify any questionable
   costs or compliance issues related to the CBIS and CCTV projects, or any deficiencies in
   internal controls over financial reporting or compliance with Federal requirements.

   We tested Authority records to determine their compliance with OMB Circular A-87 and
   with other terms and conditions of the OTA. We considered the Authority’s internal


www.oig.dhs.gov                               5                                  	 OIG-12-129

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   controls over the administration of TSA funds and the Single Audits’ results in
   determining our audit procedures.

   Our audit was conducted without the benefit of a technical evaluation by TSA of the
   materials and manufactured components used in the construction of the CBIS and CCTV;
   therefore, our conclusions are qualified to the extent that a technical evaluation may
   affect the allowability of invoiced costs.

   We conducted this performance audit between May and June 2012, pursuant to the
   InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                                6                                     OIG-12-129

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Recovery Act Coordinator
   Administrator, Transportation Security Administration
   Acting General Manager, Checked Baggage Division/Program
      Manager, Electronic Baggage Screening Program, TSA
   Audit Liaison Official, TSA

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             7                              OIG-12-129

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
